<html>
<title> - HEARING TO REVIEW THE U.S. DEPARTMENT OF AGRICULTURE'S OFFICE OF THE ASSISTANT SECRETARY FOR CIVIL RIGHTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  HEARING TO REVIEW THE U.S. DEPARTMENT OF AGRICULTURE'S OFFICE OF THE
                  ASSISTANT SECRETARY FOR CIVIL RIGHTS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON DEPARTMENT OPERATIONS,
                   OVERSIGHT, NUTRITION, AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2009

                               __________

                           Serial No. 111-11


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                  U.S. GOVERNMENT PRINTING OFFICE
52-596                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           ROBERT E. LATTA, Ohio
STEVE KAGEN, Wisconsin               DAVID P. ROE, Tennessee
KURT SCHRADER, Oregon                BLAINE LUETKEMEYER, Missouri
DEBORAH L. HALVORSON, Illinois       GLENN THOMPSON, Pennsylvania
KATHLEEN A. DAHLKEMPER,              BILL CASSIDY, Louisiana
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho
------

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

                 Nicole Scott, Minority Staff Director

                                 ______

   Subcommittee on Department Operations, Oversight, Nutrition, and 
                                Forestry

                     JOE BACA, California, Chairman

HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska, 
STEVE KAGEN, Wisconsin               Ranking Minority Member
KURT SCHRADER, Oregon                STEVE KING, Iowa
KATHLEEN A. DAHLKEMPER,              JEAN SCHMIDT, Ohio
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
TRAVIS W. CHILDERS, Mississippi

               Lisa Shelton, Subcommittee Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Baca, Hon. Joe Baca, a Representative in Congress from 
  California, opening statement..................................     1
Fortenberry, Hon. Jeff, a Representative in Congress from 
  Nebraska, opening statement....................................     2
    Prepared statement...........................................     3
Kagen, Hon. Steve, a Representative in Congress from Wisconsin, 
  opening statement..............................................     4
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, prepared statement..................................     6
Scott, Hon. David, a Representative in Congress from Georgia, 
  opening statement..............................................     4

                               Witnesses

Leonard, Jr., Ph.D., Hon. Joe, Assistant Secretary, Office for 
  Civil Rights, U.S. Department of Agriculture, Washington, D.C..     7
    Prepared statement...........................................     8
Shames, Lisa, Director, Natural Resources and Environment, U.S. 
  Government Accountability Office, Washington, D.C..............    11
    Prepared statement...........................................    13


  HEARING TO REVIEW THE U.S. DEPARTMENT OF AGRICULTURE'S OFFICE OF THE
                  ASSISTANT SECRETARY FOR CIVIL RIGHTS

                              ----------                              


                       WEDNESDAY, APRIL 29, 2009

                  House of Representatives,
 Subcommittee on Department Operations, Oversight, 
                            Nutrition, and Forestry
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:40 a.m., in 
Room 1300, Longworth House Office Building, Hon. Joe Baca 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Baca, Kagen, Dahlkemper, 
Childers, Scott, and Fortenberry.
    Staff present: Claiborn Crain, Adam Durand, Tyler Jameson, 
John Riley, Lisa Shelton, Anne Simmons, Rebekah Solem, Kristin 
Sosanie, Brent Blevins, and Jamie Mitchell.

    OPENING STATEMENT OF HON. JOE BACA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    The Chairman. The Subcommittee on Department Operations, 
Oversight, Nutrition, and Forestry hearing to review the Office 
of the Assistant Secretary for Civil Rights will come to order.
    Before we begin, I would like to welcome Mr. Scott, a 
Member of the full Committee, who has joined us.
    Without any objection, Mr. Scott may participate in today's 
hearing. I welcome the gentleman from Georgia. Thank you very 
much for being here and being interested in the subject matter.
    I would like to begin the hearing with opening statements. 
I will begin with my opening statement, and then I will call on 
the Ranking Member, Mr. Fortenberry, to give his statement and 
then allow the other individuals starting with the Members of 
the Committee and then the gentleman from Georgia.
    I start off by saying, good morning, and thank all of you 
for being here before the Subcommittee today. I am pleased 
that, finally, we have the opportunity to conduct an oversight 
hearing of the USDA Office of Assistant Secretary for Civil 
Rights.
    I congratulate and welcome our new Under Secretary, Dr. 
Leonard.
    And I also welcome Ms. Shames from the GAO.
    Thank you both for being here this morning.
    I hoped when I first was elected to the Subcommittee chair 
that we would have this hearing. However, the farm bill and the 
general election and the transition to a new Administration, 
plus waiting for the completion of the GAO investigation, have 
all delayed this hearing.
    For too long, the reputation of the USDA has been marred by 
discrimination. Minority producers and employees alike have 
fought for equal consideration from the Department without full 
satisfaction. In spite of what I believe to be mostly good-
faith efforts, there are decades of failed attempts to 
successfully establish and enforce equality within and without 
the Department.
    In fact, of the 14,000 complaints that have been filed, 
since 2000, with the ASCR, only four were actively being 
investigated. This number is shockingly low. The Committee and 
others heard firsthand the account of the abuse suffered by 
African Americans, Hispanics, Native Americans and other 
minority farmers, and I remember that hearing we had. It was 
about a 7 to 8 hour hearing. Congresswoman Clayton and I were 
here at that point.
    And last May, many African American farmers testified 
before Congress on this very issue. Their strong voices played 
a key role in the initiation of the GAO report that we will be 
reviewing today.
    Let me be clear, discrimination is unacceptable. I repeat, 
discrimination is unacceptable.
    It is long past time to get to work on fixing the problem. 
To that end, I recognize the commitment of President Obama and 
Secretary Vilsack, and I appreciate their desire to heal the 
deep wounds of the USDA's poor civil rights record through the 
new era of civil rights initiative.
    But I believe today's review of the problem outlined in the 
October 2008 GAO report will be constructive to us all. I want 
to be very clear, I will conduct an active oversight of ASCR to 
make sure that the goals set out in the new initiative are 
fully met. And I state, fully met.
    One final note: We made some important changes in the 2008 
Farm Bill to help minority producers, including a provision 
that permits refiling of claims in the Pigford discrimination 
suit. I am proud of this action and await the decision of our 
court system to ensure that these claims are adjudicated 
fairly.
    Again, I want to thank our witnesses for being here this 
morning. Today we will listen and learn about some of the 
problems that have plagued USDA in the past. I am hopeful that 
we will also learn some of the concrete steps that the 
Department plans to take, in the right direction, to ensure 
equitable treatment of all producers and the USDA employees 
moving forward.
    I now yield to Ranking Member Congressman Fortenberry for 
his opening statement.

OPENING STATEMENT OF HON. JEFF FORTENBERRY, A REPRESENTATIVE IN 
                     CONGRESS FROM NEBRASKA

    Mr. Fortenberry. Thank you, Mr. Chairman.
    I appreciate your interest in calling this hearing today. 
And I would also like to take the opportunity to welcome our 
witnesses: Ms. Shames, who is the author of the Government 
Accountability Office report; and Dr. Joe Leonard, Assistant 
Secretary for Civil Rights at the Department of Agriculture.
    Dr. Leonard, I congratulate you on your recent appointment 
and confirmation to this post. I look forward to working with 
you in the future.
    Today we will hear testimony from the GAO regarding their 
October report on challenges facing the Office of Civil Rights 
at USDA. Specifically we will hear their recommendations and 
options available to Congress to address these ongoing issues.
    I am also looking forward to hearing from you, Dr. Leonard, 
about what steps USDA will take to respond to the GAO 
recommendations.
    Mr. Chairman, it is absolutely clear, and I agree with your 
statement, that all farmers deserve equal access to USDA 
programs regardless of race, ethnicity or gender. USDA has been 
the subject of extensive litigation regarding claims of 
discrimination over the last decade with the Pigford settlement 
resulting in payments of nearly a billion dollars. This 
Committee feels strongly about making sure that USDA is 
administering all of its programs in an equitable and just 
manner.
    In last year's farm bill, as referenced, we included--we 
authorized funds to be spent on late filers to the Pigford 
settlement. We also mandated that USDA provide annual reports 
to our Committee on the number of civil rights complaints made 
to the Department and the length of time to resolve them, which 
allows us to better monitor this situation at USDA.
    Again, I want to thank our witnesses for appearing before 
us. I look forward to the testimony.
    [The prepared statement of Mr. Fortenberry follows:]

   Prepared Statement of Hon. Jeff Fortenberry, a Representative in 
                         Congress from Nebraska

    Thank you Mr. Chairman for calling this hearing. I would like to 
take this opportunity to welcome our witnesses: Lisa Shames, author of 
the GAO report, and Dr. Joe Leonard, Assistant Secretary for Civil 
Rights at USDA. Dr. Leonard, I want to take this opportunity to 
congratulate you on your recent confirmation to this important post. I 
look forward to working with you in the future.
    We will hear testimony today from GAO regarding their October 
report on challenges facing the Office of Civil Rights at USDA. 
Specifically, we will hear their recommendations and options available 
to the Congress to address these ongoing issues. I am anxious to hear 
from Dr. Leonard about what steps USDA will take to respond to GAO's 
recommendations.
    Mr. Chairman, I speak for everyone when I say that all farmers 
deserve equal access to USDA programs regardless of race, ethnicity or 
gender. As we all know, USDA has been the subject of extensive 
litigation regarding claims of discrimination over the last decade, 
with the Pigford settlement resulting in payments of nearly a billion 
dollars.
    This Committee feels strongly about making sure that USDA is 
administering all of its programs in an equitable and just manner. In 
last year's farm bill, we included an authorization for $100 million to 
be spent on payments to late-filers as part of the Pigford settlement. 
We also mandated that USDA provide annual reports to our Committee on 
the number of Civil Rights complaints made to the Department and the 
length of time to resolve them, which allows us to better monitor the 
situation at USDA.
    I want to thank our witnesses for appearing before us today and I 
look forward to their testimony. Thank you, Mr. Chairman.

    The Chairman. Thank you very much, Mr. Fortenberry.
    Votes are expected by 11:00, so I just wanted to warn us.
    I recognize Mr. Kagen for an opening statement.

  OPENING STATEMENT OF HON. STEVE KAGEN, A REPRESENTATIVE IN 
                    CONGRESS FROM WISCONSIN

    Mr. Kagen. Thank you, Mr. Chairman.
    I want to thank you for holding this hearing on this very 
important subject. It matters not just to me; it matters to 
everybody in Wisconsin and in the country.
    The history of the USDA with regard to the lack of 
enforcement of our civil rights is a long history of failure--
failure to comply. I will just report some of the numbers that 
I am sure you are already familiar with.
    In 1969, of the 4,100 employees with the ASCS, the 
Agriculture Stabilization Conservation Service, of 4,100 people 
working there, there were two people of African American 
descent. In 1920, there were 925,000 farms owned by people of 
darker skin than Caucasians; and in 2000, 18,000. So let the 
numbers speak for themselves.
    But, look not just at the numbers, take a look at the 
record. When President Nixon was in office, he had Earl Butz 
working at the Department of Agriculture, and it was under the 
direction of Earl Butz that he secretly helped seven states 
avoid decreasing funding that would have come to those states 
because of violations of Title VI of the Civil Rights Act.
    It didn't stop there. President Reagan with John Block 
idled the Civil Rights Office and stopped investigations of 
complaints coming from black farmers.
    So the history of our civil rights being applied to the 
institution of the USDA is a sorry one, and I think you all 
have a lot of work to do.
    It is not just about applying all of the laws. It is making 
sure that the people who are in positions of power apply them 
equally, and develop a process wherein we can feel reassured 
that the funding that we provide to the USDA gets to the people 
on the lands who need it the most and in an equitable fashion.
    It is not about reorganization. It shouldn't be about 
forming another commission or an ombudsman. It is not about 
forming another committee to oversee someone else. It is just 
about getting the job done. It is about results. I echo the 
Chairman's view; there should be no discrimination anywhere 
along the line.
    I yield back the balance of my time.
    The Chairman. The gentleman from Georgia, Mr. Scott, for an 
opening statement.

  OPENING STATEMENT OF HON. DAVID SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    Mr. Scott. I thank you, Mr. Chairman, for your longstanding 
advocacy of civil rights and equal treatment for all American 
citizens. Your record speaks to that during your long 
distinguished career, and I wanted to recognize you for your 
leadership in the civil rights area.
    Nowhere is this more significant now than with black 
farmers. As my colleague, Mr. Kagen, so very aptly described, 
the history is there. It is replete with discrimination.
    As one who grew up on a black farm in rural South Carolina, 
one who comes from a long line of black farmers, as many of our 
people do, we know and have witnessed firsthand the inequitable 
treatment.
    Also, Mr. Chairman, as you and I served on the Conference 
Committee for the farm bill, we were very, very adamant in 
strengthening the Civil Rights Department in the United States 
Department of Agriculture. At that time, we pointed out the 
absolute need for it. Also, as part of that bill, farm bill, 
Mr. Chairman, you and I both made sure that the Pigford 
situation was addressed and that we put in funding of $100 
million as a start, not an end, as we move forward to address 
that situation.
    We are making progress. First of all, I want to commend Dr. 
Joe Leonard who is now the Assistant Secretary of Civil Rights 
for the Department of Agriculture. What a stirring appointment 
that is. Your tenure as Executive Director of the Congressional 
Black Caucus is an extraordinary one, and I am sure if you just 
match that service as the Director of the Congressional Black 
Caucus, you are going to do an excellent job in here. And you 
have the full support of this Congress in carrying out your 
very challenging and important piece of work.
    I also feel compelled to say that, thus far, in the short 
period of time that he has been in office, Secretary Vilsack 
has done a tremendous job, especially in his outreach to the 
minority farmer community, and understanding and having a full 
grasp of the dimensions of the past vestiges of prejudice and 
discrimination that have been applied to black farmers. So I 
want to commend Secretary Vilsack for his aggressive efforts to 
reverse course at the United States Department of Agriculture 
and correct its shameful civil rights legacy. We all applaud 
the direction that Secretary Vilsack is taking, and his 
commitment to civil rights, as far as black farmers are 
concerned.
    In fact, within days of his confirmation, one of Secretary 
Vilsack's first official actions was to travel to my own State 
of Georgia. Certainly, we have our share of black farmers. He 
traveled to Georgia to address civil rights concerns at a 
conference of the Federation of Southern Cooperatives in 
Albany, Georgia. That is a sign of his commitment in this area. 
One of the first trips he took was into the deep South to grab 
a firsthand impression of the challenges facing black farmers. 
And we are so grateful to the Secretary for doing that.
    By now, I am sure we have all seen the Department-wide memo 
that Secretary Vilsack has recently sent to all United States 
Department of Agriculture employees laying out his vision for, 
as he called it, a ``new civil rights era'' at the United 
States Department of Agriculture. That is an example of the 
commitment of this new Secretary of the Department of 
Agriculture.
    Make no mistake about it, challenges remain. We have to do 
everything we can to make sure that all available Federal funds 
can get to these black farmers. However, given that President 
Obama has been in office only 100 days, Secretary Vilsack even 
less, and Dr. Leonard barely having had time to unpack his 
bags, I am comfortable with the direction of the new leadership 
of the United States Department of Agriculture is headed in 
with respect to civil rights.
    I greatly look forward to working with Secretary Vilsack on 
this, certainly with your Subcommittee, Mr. Chairman.
    Dr. Leonard, as we look to these issues in the future, I 
look forward to a very informative and productive hearing.
    Thank you, Mr. Chairman, for having me.
    The Chairman. Thank you, Mr. Scott, for your statement. The 
chair requests that other Members submit their opening 
statements for the record.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota

    I thank the Chairman and the Ranking Member for their leadership on 
this issue.
    For the past few decades, there have been civil rights violations 
and concerns in the U.S. Department of Agriculture. Whether it be 
violations against Department employees or clients of USDA programs, 
the complaints are troublesome and minority producers deserve better.
    The farm bill has been a vehicle to try and correct some of these 
problems in the past. The 2002 Farm Bill first established the Office 
of the Assistance Secretary for Civil Rights at the U.S. Department of 
Agriculture, and the most recent farm bill included a provision (under 
the jurisdiction of the Judiciary Committee) to permit re-filing of 
claims in the Pigford discrimination suit.
    Both of these actions were important steps in assisting and 
encouraging opportunity for minority farmers and ranchers, just as the 
oversight hearing this Subcommittee is conducting today is an important 
step to increase awareness and ensure that the ASCR is doing what it is 
supposed to. I have spoken to the new Assistant Secretary, Dr. Leonard, 
and it's clear to me that he is committed to ensuring that minority 
farmers and ranchers get the fair and equal treatment that they've been 
waiting for all these years.
    USDA's difficulties in resolving discrimination complaints have 
been the focus of investigative reports from USDA's Office of the 
Inspector General and the Government Accountability Office (GAO)--the 
most recent of which was published in October last year and will be an 
integral part of today's discussion.
    The findings are dramatic:

  <bullet> As of July 2007, more than 850 complaints still had not been 
        addressed, and there is not enough staff to tackle the backlog;

  <bullet> the efforts made to resolve complaints have consistently 
        been hindered by disparities in data and reporting;

  <bullet> many of the steps ASCR has taken to address these problems 
        were actually counterproductive;

  <bullet> and currently, there is no plan on how to correct the 
        problems in the future.

    It is important to get these problems resolved in order to restore 
public and producer confidence in USDA's ability to uphold civil 
rights. I thank the witnesses for coming today and look forward to 
hearing the testimony.

    The Chairman. Again, I would like to introduce both of 
them. Each of you will have 5 minutes, and then we will proceed 
with questions from the Members here.
    I would like to introduce the Honorable Joe Leonard, Jr., 
Assistant Secretary for Civil Rights, U.S. Department of 
Agriculture, from Washington, D.C.
    After him will be Lisa Shames, Director, Natural Resources 
and Environment, U.S. Government Accountability Office, 
Washington, D.C.
    Dr. Leonard, please begin when you are ready.

         STATEMENT OF THE HON. JOE LEONARD, JR., Ph.D.,
           ASSISTANT SECRETARY FOR CIVIL RIGHTS, U.S.
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Dr. Leonard. Mr. Chairman, Members of the Subcommittee, and 
my former boss, Representative Scott, thank you for the 
opportunity to appear before this Subcommittee today.
    I want to thank President Obama for his confidence in 
nominating me to this esteemed position, and also Members of 
Congress and Secretary Vilsack for their support.
    I am honored to be able to discuss with you my initial 
review of the Office of the Assistant Secretary for Civil 
Rights. As of today, I have been in the position of Assistant 
Secretary for Civil Rights at USDA for a total of 23 days. In 
those 23 days, I have met several times with Secretary Vilsack 
and other senior leadership and Office of Civil Rights 
employees.
    My initial assessment of the Civil Rights Department has 
been wide and varied. After several sessions with the 
Secretary, I can assure you he is committed and is the driving 
force to turn around civil rights at USDA. Secretary Vilsack 
expressed his commitment to civil rights in his first meeting 
with USDA employees when he told them that civil rights is one 
of his top three priorities.
    In addition, Secretary Vilsack has charged me with being 
the conduit for making sure that the civil rights priority is 
met and that we forever close the chapter of USDA as the last 
plantation. I am confident that, under Secretary Vilsack's 
leadership, we will achieve this goal.
    I sincerely believe my career experiences in social justice 
and civil rights, and my background in American history, have 
prepared me to handle the challenges and mitigate the barriers 
facing the Office of the Assistant Secretary for Civil Rights. 
History only repeats itself if we are not vigilant, and we will 
be vigilant.
    USDA has a documented chaotic history in civil rights for 
which we plan to address. Frequent changes in leadership and 
reorganizations and lack of resources, human and fiscal, have 
contributed much to the chaos. To address this situation and 
elevate civil rights within USDA, the 2002 Farm Bill authorized 
the establishment of the position of Assistant Secretary for 
Civil Rights. Clearly, this was a step in the right direction, 
to move civil rights forward, but the full intent for the 
office is yet to be realized. There still remains the challenge 
of addressing a ballooning inventory of complaints in a timely 
manner and in efficient complaint processing.
    Many farmers and ranchers have not received adequate due 
process in the handling of their complaints. Complaints were 
held beyond the expiration of the statute of limitations under 
the Equal Credit Opportunity Act, resulting in complainants 
being ineligible to receive compensatory damages for the 
findings of discrimination.
    Our initial assessment has disclosed that complaints were 
closed without a proper investigation, resulting in the 
foreclosure moratorium being lifted and complainants' farms 
being foreclosed on without proper determination on their 
complaint.
    This matter raised a serious concern for Secretary Vilsack. 
And to ensure that it does not occur in the future on his 
watch, and in response to economic challenges facing farmers, 
he has temporarily suspended all foreclosures on farm loans for 
approximately 90 days. And I assure you that I will not allow 
improper closures of civil rights complaints to occur on my 
watch.
    Along with the assistance of Lloyd Wright, Adviser to the 
Secretary of Civil Rights Programs Complaint, we have developed 
a plan of action to ensure that those individuals whose 
complaints were closed in error are reviewed and fairly 
investigated.
    I am aware of the initial response to the GAO report 
recommendations. I have revised the original response to 
comport with GAO's recommendations and to address many of the 
root causes of the deficiencies in the management of civil 
rights at USDA.
    My written testimony includes a more in-depth discussion on 
how I plan to address the recommendations, including the 
creation of an ombudsman office.
    On April 21, 2009, Secretary Vilsack issued a memorandum to 
all USDA employees outlining his initial steps to change the 
direction of equal employment opportunity, civil rights, and 
program delivery in the Department. I am confident that under 
Secretary Vilsack's leadership, civil rights at the Department 
will be improved in a transparent and ethical manner, which 
will lead the way in making USDA a model organization.
    We will implement, in an expeditious manner, GAO's 
recommendations and the results of my initial assessment of 
civil rights matters at the Department. It is Secretary 
Vilsack's and my top priority to ensure that all USDA 
constituents, customers, stakeholders, employees and applicants 
are provided equal access to the opportunities, programs and 
services available through the people's Department.
    We would like to acknowledge our constituents, customers, 
stakeholders and Congress in supporting the Secretary's actions 
to address civil rights challenges at USDA.
    Again, I would like to thank you for the opportunity to 
share the Department's plans to address the challenges and 
barriers facing civil rights at USDA.
    Thank you for your time.
    [The prepared statement of Dr. Leonard follows:]

     Prepared Statement of Hon. Joe Leonard, Jr., Ph.D., Assistant 
  Secretary, Office for Civil Rights, U.S. Department of Agriculture, 
                            Washington, D.C.

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to submit this statement on the review of the United States 
Department of Agriculture's (USDA) Office of the Assistant Secretary 
for Civil Rights (OASCR).
    I have been in the position of the Assistant Secretary for Civil 
Rights at USDA for 23 days. During this time, I have met several times 
with Secretary Vilsack and other senior leadership, OASCR employees, 
and begun my initial assessment of civil rights in the Department. 
After several sessions with the Secretary, I can assure you he is 
committed and is the driving force to turn around civil rights at USDA. 
Secretary Vilsack expressed his commitment to improving civil rights in 
his first meeting with USDA employees when he told them civil rights is 
one of his top priorities.
    I share Secretary Vilsack's dedication and commitment to civil 
rights. My career in social justice and civil rights is a testament to 
that end and I foresee that commitment playing a vital role in 
overseeing civil rights at USDA. I am confident that I, along with the 
staff that Secretary Vilsack has put together at USDA, will be able to 
tackle the barriers and challenges facing civil rights at the 
Department.
    The recent Government Accountability Office (GAO) report on the 
``Management Deficiencies in the Office of the Assistant Secretary for 
Civil Rights'' lists six recommendations that I plan to begin 
implementing immediately. During its review, GAO assessed USDA's 
efforts to (1) resolve discrimination complaints, (2) report on 
minority participation in farm programs, and (3) strategically plan its 
efforts. The report is based on new and prior reports, including an 
analysis of OASCR's discrimination complaint management and strategic 
planning, and interviews with officials of USDA and other agencies, as 
well as 20 USDA stakeholder groups. GAO made recommendations for 
executive action to USDA to resolve discrimination complaints; improve 
data reliability; develop a civil rights strategic plan; obtain an 
independent review of USDA processes; obtain approval for data 
collection; and explore establishing an ombudsman.
     Below is how I plan to address the recommendations made 
specifically to USDA:

    GAO Recommendation: Prepare and implement an improvement plan for 
resolving discrimination complaints that sets timeframe goals and 
provides management controls for resolving complaints from beginning to 
end.
    USDA Response: USDA's improvement plan includes:

    1. Evaluate and adjust staffing levels to ensure resolution of 
        discrimination complaints in a timely manner.

    <bullet> Continue the interagency agreement with the National Equal 
            Employment Opportunity Investigative Services in the U.S. 
            Postal Service to assist with the overflow of employment 
            complaint cases that cannot be timely processed by OASCR 
            staff, and continue to utilize contract attorneys to 
            prepare final agency decisions (FADs). By June 30, 2009, 
            conduct an internal workload analysis to determine if 
            additional contract attorneys are needed.

    <bullet> OASCR has procured the services of a special advisor, 
            Lloyd Wright, to conduct a workload analysis and to develop 
            a plan for required staffing to review program complaints 
            that have been processed since Fiscal Year 2000 and those 
            currently being processed. The staffing plan includes staff 
            needed to conduct the quality assurance review of 
            complaints processed since the Fiscal Year 2000, as well as 
            permanent staff to conduct investigations and adjudication 
            of complaints. A task force will be immediately created to 
            begin to carry out the plan developed by Mr. Wright.

    2. Improve the quality control procedures.

    <bullet> By October 1, 2009, review and revise performance 
            standards based on the results of the workload analysis for 
            all employees who process complaints to ensure reasonable 
            quantity is achieved while not sacrificing quality.

    <bullet> Continue quality control reviews of complaint FADs, and 
            monitor case inventory and workload productivity. Every FAD 
            is currently reviewed by OASCR for quality control.

    <bullet> Implement Lloyd Wright's task force plan recommendations, 
            which include quality assurance for program complaints 
            processed since Fiscal Year 2000.

    <bullet> Design and implement management controls to ensure 
            complaints are received, stored and processed in a 
            consistent manner, within specific timeframes. The first 
            phase of this process has been implemented by a contract to 
            review and design a state of the art electronic records 
            system.

    <bullet> Create and institute a correspondence management policy 
            and plan for all OASCR correspondence.

    <bullet> In response to the economic challenges, the Secretary will 
            continue to use his existing authority to temporarily 
            suspend all current foreclosures within the Farm Service 
            Agency's farm loan program for approximately 90 days. This 
            time also affords the Department the opportunity to review 
            the loans for any problems associated with possible 
            discriminatory conduct. USDA is also in discussions with 
            the Department of Justice regarding their exercising their 
            authority to review existing litigation over these loans, 
            so that such a review might be conducted.

    <bullet> OASCR will review the organization and roles of the OASCR 
            and ensure that appropriate emphasis and staffing is being 
            placed on enforcement of EEO and Civil Rights laws 
            regarding employment and program delivery by July 1, 2009.

    3. Establish a state-of-the-art records management system.

    <bullet> OASCR has hired a trained Records Manager and is 
            implementing procedures to ensure that the records 
            management program is in compliance with applicable 
            departmental regulations.

    <bullet> OASCR will design and implement management controls to 
            ensure complaints are received, stored and processed in a 
            consistent manner, within specific timeframes. The first 
            phase of this process has been implemented by a contract to 
            review and design a state of the art electronic records 
            system.

    4. Hold agency heads accountable for their performance in program 
        and employment complaint processing.

    <bullet> Each year OASCR evaluates agency heads using the Agency 
            Head Civil Rights Performance Assessment Plan. USDA agency 
            heads will be held accountable for their timely submission 
            of counselor reports, agency position statements and 
            employment reports of investigation.

    5. Strengthen Alternative Dispute Resolution (ADR) across the 
        Department.

    <bullet> By December 30, 2009, develop a plan for the 
            organizational structure of ADR and best practices based on 
            the results of the ombudsman study.

    GAO Recommendation: Develop and implement a plan to ensure the 
accuracy, completeness and reliability of OASCR's databases on customer 
and employee complaints, and that provides for independent validation 
of OASCR's data quality.
    USDA Response: USDA will take immediate action to migrate all 
program complaint data to one data system; add additional data elements 
to ensure usefulness of the system; and develop departmental policy and 
training for agency Civil Rights directors to ensure consistent use of 
the system. Quality assurance will be an integral part of this process.

    GAO Recommendation: Obtain an expert, independent and objective 
legal examination of the basis, quality, and adequacy of a sample of 
USDA's prior investigations and decisions on civil rights complaints, 
along with suggestions for improvement.
    USDA Response: Through the creation of the earlier mentioned task 
force, USDA will immediately create a Task Force to conduct a review of 
program civil rights complaints that have been processed since the year 
2000 or that are currently being processed. The efforts of the task 
force will be supported with assistance from an independent legal 
counsel with additional resources to conduct the review, 
investigations, and complaint adjudication. Agencies will be asked to 
contribute detailees for both short- and long-term phases of the task.

    GAO Recommendation: To improve USDA efforts to address civil rights 
issues and the participation of minority farmers and ranchers in USDA 
programs, work expeditiously to obtain OMB's approval to collect the 
demographic data necessary for reliable reporting on race and ethnicity 
by USDA program.
    USDA Response: OASCR will, in collaboration with OMB and other 
relevant agencies, fully implement automated corporate race, ethnicity, 
and sex, national origin, disability, and age data collection for NRCS, 
FSA, and RD at the field office level. The second phase will be the 
development of a corporate proposal across USDA. OASCR, in 
collaboration with the service center agencies, will implement all 
provisions of the 2008 Farm Bill related to tracking and monitoring of 
client services, including ``Receipt for Services'' by October 1, 2009.

    GAO Recommendation: Develop a results-oriented Department-level 
strategic plan for civil rights at USDA that unifies USDA's 
departmental approach with that of OASCR and the newly created Office 
of Advocacy and Outreach and that is transparent about USDA's efforts 
to address the concerns of stakeholders.
    USDA Response: USDA will ensure that its strategic plan 
incorporates a comprehensive, results-oriented, Department-wide 
strategy for civil rights, including outreach, and addresses the 
concerns of constituents and stakeholders. USDA will:

  <bullet> Publish a Request for Proposals (RFP) to obtain an 
        independent external analysis of program delivery in our field 
        offices of Natural Resources Conservation Service, Farm Service 
        Agency and Rural Development which will provide specific 
        recommendations and methodologies that will ensure that 
        programs are delivered equitably and that access is afforded to 
        all constituents, with particular emphasis on socially 
        disadvantaged farmers, ranchers, and other constituents. While 
        this study will apply to these three agencies, the results may 
        be implemented in all USDA agencies to ensure that all USDA 
        programs are accessible.

  <bullet> Establish separate outreach, advocacy and diversity 
        functions and the completion of the study of the field office 
        delivery system.

  <bullet> Draft a final report summarizing the information gleaned 
        from the previous partners' meetings to be published by June 
        30, 2009 and to be considered in the field office delivery 
        system study.

    GAO Recommendation: Further explore the potential for an ombudsman 
office to contribute to addressing the civil rights concerns of USDA 
customers and employees, including seeking legislative authority, as 
appropriate, to establish such an office and to ensure its 
effectiveness, and advise USDA's Congressional oversight Committees of 
the results.
    USDA Response: USDA has convened a team to study the creation of an 
ombudsman office, including Alternative Dispute Resolution (ADR) 
services in the Department, and to make recommendations for 
establishing the office and strengthening the ADR function by September 
30, 2009.
    I am confident that under Secretary Vilsack's leadership, civil 
rights at the Department will be improved in a transparent and ethical 
manner which will lead the way in making USDA a model organization. We 
will implement in an expeditious manner, GAO's recommendations and 
initiatives that result from my final assessment of civil rights 
matters at the Department. It is Secretary Vilsack's and my top 
priority to ensure that all USDA applicants, customers, constituents 
and stakeholders, as well as all USDA employees, are provided equal 
access to the opportunities, programs and services available through 
``the People's Department.''
    Again, I would like to thank you for the opportunity to share the 
Department's plan on how to address challenges and barriers facing 
civil rights at USDA.

    The Chairman. Thank you very much, Dr. Leonard.
    Ms. Shames.

          STATEMENT OF LISA SHAMES, DIRECTOR, NATURAL
           RESOURCES AND ENVIRONMENT, U.S. GOVERNMENT
            ACCOUNTABILITY OFFICE, WASHINGTON, D.C.

    Ms. Shames. Thank you, Chairman Baca, and Members of the 
Subcommittee. I am pleased to be here today to discuss USDA's 
management of civil rights issues.
    Today's hearing is especially timely. It provides an 
opportunity for the new Administration to discuss solutions to 
these issues.
    This morning I would like to make two observations. First, 
while GAO found numerous deficiencies in USDA's management of 
civil rights, we have also made constructive recommendations.
    On a positive note, as Dr. Leonard just mentioned, USDA is 
beginning to take steps on all of our recommendations.
    Second, we have identified additional options that are 
relevant for USDA. These options, a statutory performance 
agreement, and oversight board, and an ombudsman have held 
other Federal agencies accountable and helped them improve 
their performance.
    First, let me recap our findings. We found that backlogs 
and discrimination complaints persist, and steps to speed up 
investigations may have adversely affected quality. In response 
to our recommendation, USDA told us they are beginning to 
develop an improvement plan with timeframes for resolving 
complaints. USDA also plans to obtain an independent, legal 
review of a sample of USDA's prior decisions. We believe this 
last step in particular will help build confidence in USDA's 
management.
    We also reported that much of the data on minority 
participation in USDA programs are unreliable. These data are 
unreliable because they are mostly based on visual observation, 
so traits such as race and ethnicity may not be apparent. USDA 
needs approval from OMB to collect data directly from program 
participants, and published a notice in the Federal Register in 
2004 to obtain this approval. However, USDA did not follow 
through. Accordingly, we made the recommendation in our recent 
report. USDA officials indicated a new notice is under review.
    Last, we found that USDA's strategic planning was limited. 
A key element is to involve stakeholders, but the interest of 
USDA stakeholders are not explicitly reflected in its strategic 
plan. For example, our interviews with community-based 
organizations and minority interest groups show they would like 
better access to farm programs, more diversity among USDA 
employees who work with minority producers and better access to 
farm programs. USDA told us it will develop a results-oriented 
Department level strategic plan in the next planning cycle.
    Moving forward, our work on high-risk, underperforming 
Federal agencies has identified options that could benefit 
USDA. These options include making USDA's Assistant Secretary 
for Civil Rights subject to a statutory performance agreement, 
establishing an oversight board, and creating an ombudsman for 
USDA civil rights matters.
    Congress has required performance agreements in other 
Federal offices, and the results have been positive. For 
example, the Education Department's Office of Student Aid had 
experienced longstanding financial and management weaknesses. 
Congress required its Chief Operating Officer to have a 
performance agreement with the Secretary of Education that was 
to be transmitted to Congress and made publicly available. In 
addition, the office was required to report to Congress 
annually on its performance. Subsequently, GAO removed this 
program from our high-risk list because of the improvements.
    More recently, Congress has required statutory performance 
agreements for the Commissioners at the Patent and Trademark 
Office and the Under Secretary for Management at the Department 
of Homeland Security.
    Congress could also authorize an oversight board, as it has 
for other Federal activities, including public accounting and 
drug safety. Oversight boards can provide assurance that 
activities are well done, identify weaknesses that may need to 
be addressed, and provide for transparency. For example, 
Congress established the IRS Oversight Board to oversee the 
fair administration of tax collections. At that time, IRS was 
considered to be an agency that was not effectively serving the 
public or meeting taxpayer needs.
    Finally, establishing an ombudsman for USDA civil rights 
matters could help address the concerns of USDA employees and 
customers. There are currently 43 ombudsmen in Federal 
agencies. External ombudsmen can help agencies be more 
responsive to the public through impartial and independent 
investigation of complaints. For example, we reported that the 
EPA ombudsmen are points of contact for those who have concerns 
about hazardous waste cleanups. We also identified that the 
Transportation Security Administration ombudsman is one who can 
recommend changes to improve customer service.
    USDA officials indicated that a team was convened to study 
the ombudsman concept and will make recommendations by 
September 30, 2009.
    In summary, USDA has been addressing allegations of 
discrimination for decades without achieving fundamental 
improvements. GAO and others have offered recommendations for 
improving civil rights management. It appears that USDA is 
taking steps to implement them. Nevertheless, the options GAO 
has identified can make it clear that Congress and the public 
hold USDA accountable for improving its longstanding 
deficiencies in civil rights.
    Mr. Chairman, this concludes my prepared statement, and I 
am pleased to answer any questions you or Members of the 
Subcommittee may have.
    [The prepared statement of Ms. Shames follows:]

  Prepared Statement of Lisa Shames, Director, Natural Resources and 
  Environment, U.S. Government Accountability Office, Washington, D.C.
Recommendations and Options Available to the New Administration and 
        Congress to Address Long-Standing Civil Rights Issues

Highlights
    Highlights of GAO-09-650T (http://www.gao.gov/new.items/
d09650t.pdf), a testimony before the Subcommittee on Department 
Operations, Oversight, Nutrition and Forestry, Committee on 
Agriculture, House of Representatives.

Why GAO Did This Study
    For decades, there have been allegations of discrimination in the 
U.S. Department of Agriculture's (USDA) programs and workforce. 
Numerous Federal reports have described serious weaknesses in USDA's 
civil rights program--in particular, in resolving discrimination 
complaints and providing minority farmers with access to programs. In 
2002, Congress authorized the position of Assistant Secretary for Civil 
Rights (ASCR) at USDA to provide leadership for resolving these long-
standing problems.
    This testimony focuses on ASCR's efforts to (1) resolve 
discrimination complaints, (2) report on minority participation in farm 
programs, and (3) strategically plan its efforts. GAO also reviewed the 
experiences of other Federal agencies to develop options for addressing 
management deficiencies within ASCR. This testimony is based primarily 
on GAO's May 2008 testimony (GAO-08-755T) on ASCR management 
deficiencies and October 2008 report (GAO-09-62) that made a number of 
recommendations to the Secretary of Agriculture and suggested certain 
matters for Congressional consideration. At the time, USDA agreed with 
most of the recommendations but not with the matters for Congressional 
consideration. In April 2009, ASCR officials said USDA accepts all of 
the recommendations and is beginning steps to implement them; these 
officials also said they hope doing so will preclude the need for the 
Congressional actions GAO suggested.
    View GAO-09-650T (http://www.gao.gov/products/GAO-09-650T) or key 
components.
    For more information, contact Lisa Shames at [Redacted] or 
[Redacted].

What GAO Found
    ASCR's difficulties in resolving discrimination complaints persist. 
ASCR has not achieved its goal of preventing backlogs of complaints, 
and this effort has been undermined by ASCR's faulty reporting and 
disparities in ASCR data. Also, some steps ASCR took to speed up its 
work may have adversely affected the quality of its work. Consequently, 
we recommended that the Secretary of Agriculture implement plans to (1) 
improve how USDA resolves discrimination complaints and (2) ensure the 
reliability of ASCR's databases on customer and employee complaints. We 
also recommended that USDA obtain an independent legal examination of a 
sample of USDA's prior investigations and decisions on civil rights 
complaints.
    USDA considers much of its data on minority farmers' participation 
in farm programs to be unreliable because they are based on employees' 
visual observations about participants' race and ethnicity that may not 
be correct. USDA stated that it needs the Office of Management and 
Budget's (OMB) approval to collect more reliable data. Consequently, in 
October 2008, we recommended that the Secretary of Agriculture work 
expeditiously to obtain OMB's approval to collect the demographic data 
necessary for reliable reporting on race and ethnicity by USDA program.
    ASCR's strategic planning does not address key steps needed to 
ensure USDA provides fair and equitable services to all customers and 
upholds the civil rights of its employees. In October 2008, we 
recommended that the Secretary of Agriculture develop a strategic plan 
for civil rights at USDA that unifies USDA's departmental approach with 
that of ASCR and that is transparent about USDA's efforts to address 
the concerns of stakeholders.
    Three options that have been used at other agencies dealing with 
significant performance issues are relevant to addressing certain long-
standing ASCR issues: statutory performance agreements, which could 
help ASCR achieve specific expectations by providing additional 
incentives and mandatory public reporting; an oversight board, which 
could improve USDA's administration of civil rights activities and 
provide transparency; and an ombudsman office, which could assist in 
resolving civil rights concerns at USDA. In October 2008, we suggested 
that Congress consider (1) making USDA's Assistant Secretary for Civil 
Rights subject to a statutory performance agreement and (2) 
establishing a USDA civil rights oversight board. In addition, we 
recommended that the Secretary of Agriculture explore the potential for 
an ombudsman office to help address the civil rights concerns of USDA 
customers and employees.

    Mr. Chairman and Members of the Subcommittee:

    I am pleased to be here today to discuss the U.S. Department of 
Agriculture's (USDA) progress in addressing long-standing civil rights 
issues. For decades, USDA has been the focus of Federal inquiries into 
allegations of discrimination against minorities and women both in the 
programs it administers and in its workforce. Numerous reports and 
Congressional testimony by officials of the U.S. Commission on Civil 
Rights, the U.S. Equal Employment Opportunity Commission, USDA's Office 
of Inspector General (OIG), GAO, and others have described extensive 
concerns about discriminatory behavior in USDA's delivery of services 
to program customers--in particular, minority farmers--and its 
treatment of minority employees. Many of these reports and testimonies 
described serious weaknesses in USDA's management of its civil rights 
programs--in particular, weaknesses in providing minorities with access 
to USDA programs and in resolving discrimination complaints. In 
addition, USDA has been the subject of several large class-action 
lawsuits claiming discriminatory behavior on the part of the 
Department. For example, the Pigford v. Glickman case has resulted in 
the payment of about $1 billion in claims to African American farmers.
    The Farm Security and Rural Investment Act of 2002 (2002 Farm Bill) 
authorized the Secretary of Agriculture to create the new position of 
Assistant Secretary for Civil Rights, elevating responsibility within 
USDA for carrying out USDA's civil rights efforts. Under the 2002 Farm 
Bill, the Secretary may delegate responsibility to the Assistant 
Secretary for Civil Rights for ensuring that USDA complies with all 
civil rights-related laws and considers civil rights matters in all 
USDA strategic planning initiatives. In 2003, the position of Assistant 
Secretary for Civil Rights was created with these and other delegated 
responsibilities, and these responsibilities are carried out through 
the Office of the Assistant Secretary for Civil Rights (ASCR). In 
addition, the 2002 Farm Bill and subsequent legislation require USDA to 
report annually on minority participation in USDA programs.
    The new Administration has indicated its commitment to improve the 
management of civil rights at USDA. For example, the new Secretary of 
Agriculture testified in March 2009 that improving this management is 
one of his top priorities and he will dedicate the resources necessary 
to achieve this improvement. And earlier this month, USDA's new 
Assistant Secretary for Civil Rights was confirmed. This official, who 
brings to the position prior civil rights experience, also has pledged 
to improve this management. Furthermore, on April 21, 2009, the 
Secretary issued a memorandum to all USDA employees reiterating that 
civil rights is one of his top priorities and stating that he intends 
to take definitive action to improve USDA's record on civil rights and 
move USDA to a new era as a model employer and premier service 
provider. Thus, this oversight hearing is particularly timely: it 
provides an opportunity to briefly restate the scope of civil rights 
problems at USDA, but more importantly it offers an opportunity to 
discuss possible solutions to these problems for the benefit of these 
new officials.
    I will focus my testimony today on three primary issues: ASCR's (1) 
resolution of discrimination complaints, (2) reporting on minority 
participation in USDA programs, and (3) strategic planning for ensuring 
USDA's services and benefits are provided fairly and equitably. I will 
also discuss lessons learned from the experiences of other Federal 
agencies to develop options for addressing USDA's long-standing 
problems. My statement is based primarily on our May 2008 testimony on 
management deficiencies in ASCR and our October 2008 report on 
recommendations and options to address these deficiencies.\1\ To 
perform that work, we interviewed officials representing ASCR, USDA's 
OIG, USDA's agency-level civil rights offices, the Equal Employment 
Opportunity Commission, community-based organizations, and minority 
groups. We examined ASCR's strategic plan and other relevant planning 
documents, USDA documents about efforts to resolve discrimination 
complaints, and USDA's reporting on minority participation in its 
programs. In addition, we analyzed data provided by ASCR and found it 
to be unreliable; we made recommendations accordingly. We also 
considered our own guidance and reporting on results-oriented 
management \2\ and reviewed our experience in addressing the problems 
of high-risk, underperforming agencies.\3\ We conducted this work in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe the 
evidence obtained provides this reasonable basis.
---------------------------------------------------------------------------
    \1\ GAO, U.S. Department of Agriculture: Management of Civil Rights 
Continues to Be Deficient Despite Years of Attention, GAO-08-755T 
(http://www.gao.gov/new.items/d08755t.pdf) (Washington, D.C.: May 14, 
2008) and U.S. Department of Agriculture: Recommendations and Options 
to Address Management Deficiencies in the Office of the Assistant 
Secretary for Civil Rights, GAO-09-62 (http://www.gao.gov/new.items/
d0962.pdf) (Washington, D.C.: October 22, 2008).
    \2\ GAO, Executive Guide: Effectively Implementing the Government 
Performance and Results Act, GAO/GGD-96-118 (http://www.gao.gov/
archive/1996/gg96118.pdf) (Washington, D.C.: June 1996); Agencies' 
Strategic Plans Under GPRA: Key Questions to Facilitate Congressional 
Review, GAO/GGD-10.1.16 (http://www.gao.gov/archive/1997/gg1016.pdf) 
(Washington, D.C.: May 1997); The Results Act: An Evaluator's Guide to 
Assessing Agency Annual Performance Plans, GAO/GGD-10.1.20 (http://
www.gao.gov/special.pubs/gg10120.pdf) (Washington, D.C.: April 1998); 
and Results-Oriented Government: GPRA Has Established a Solid 
Foundation for Achieving Greater Results, GAO-04-38 (http://
www.gao.gov/new.items/d0438.pdf) (Washington, D.C.: Mar. 10, 2004).
    \3\ For example, see most recently GAO, High-Risk Series: An 
Update, GAO-09-271 (http://www.gao.gov/new.items/d09271.pdf) 
(Washington, D.C.: January 2009).
---------------------------------------------------------------------------
    In summary, I would like to make two observations. First, we found 
numerous deficiencies in ASCR's management of civil rights, and we 
offered a number of recommendations to address them. In April 2009, 
ASCR officials said that USDA has begun to take steps to implement each 
of these recommendations. Specifically:

  <bullet> Regarding discrimination complaint resolution, we reported 
        that ASCR had not achieved its goal of preventing backlogs of 
        complaints and that this effort was undermined by ASCR's faulty 
        reporting and disparities in ASCR data. Also, some steps ASCR 
        took to speed up its work may have adversely affected the 
        quality of its work. Consequently, we recommended that USDA 
        prepare and implement an improvement plan for resolving 
        discrimination complaints; develop and implement a plan to 
        ensure the accuracy, completeness, and reliability of ASCR's 
        databases on complaints; and obtain an independent legal 
        examination of a sample of USDA's prior investigations and 
        decisions on civil rights complaints. ASCR officials said that 
        the Department is taking steps to set timeframe goals and 
        establish proper management controls; move data from ASCR's 
        three complaint databases into one; and obtain independent 
        legal advice on its program complaints.

  <bullet> Regarding minority participation in USDA programs, we 
        reported that much of the data that USDA provided to Congress 
        and the public on minority farmers' participation in farm 
        programs are unreliable because they are, for the most part, 
        based on visual observation of program applicants. Data 
        gathered in this manner are considered unreliable because 
        individual traits, such as race and ethnicity, may not be 
        readily apparent to an observer. To address this inherent 
        shortcoming, USDA said it needs to collect standardized data 
        directly from program participants, which requires approval 
        from the Office of Management and Budget (OMB). Accordingly, we 
        recommended that USDA work expeditiously to obtain such 
        approval from OMB. ASCR officials indicated that a draft 
        Federal Register notice requesting OMB's approval to collect 
        these data is being reviewed within the Department.

  <bullet> Regarding strategic planning, we reported that ASCR's 
        planning was limited and did not reflect the views of relevant 
        stakeholders, such as community-based organizations and 
        minority interest groups; did not link to the plans of other 
        USDA agencies or the Department; could better measure 
        performance to gauge its progress; did not discuss the 
        potential for using performance information for identifying 
        USDA's performance gaps; and did not link funding with 
        anticipated results. Consequently, we recommended that USDA 
        develop a results-oriented Department-level strategic plan for 
        civil rights that unifies USDA's departmental approach with 
        that of ASCR and the newly created Office of Advocacy and 
        Outreach and that is transparent about USDA's efforts to 
        address stakeholder concerns. ASCR officials said they plan to 
        implement this recommendation during the next Department-wide 
        strategic planning process.

    Moving forward, my second observation is that the experience of 
other agencies in addressing significant performance issues provides 
options that are relevant for addressing certain long-standing ASCR 
issues. We identified three options that are relevant for 
consideration.

  <bullet> Option 1: Congress could require USDA's Assistant Secretary 
        for Civil Rights to be subject to a statutory performance 
        agreement. Congress previously required executives at several 
        other Federal agencies to be subject to these agreements. Such 
        an agreement can be transmitted to Congressional Committees and 
        made public, and the office in question can be required to 
        report to Congress annually on its performance, including the 
        extent to which it met its performance goals. Such an agreement 
        for ASCR could assist in achieving specific expectations by 
        providing additional incentives and mandatory public reporting.

  <bullet> Option 2: Congress could authorize an oversight board for 
        USDA civil rights activities. Oversight boards have been used 
        for a wide variety of purposes by the Federal Government, 
        including oversight of public accounting, intelligence matters, 
        civil liberties, and drug safety. A USDA civil rights oversight 
        board could be authorized to independently monitor, evaluate, 
        approve, and report on USDA's administration of civil rights 
        activities, thereby identifying weaknesses that need to be 
        addressed and providing transparency.

  <bullet> Option 3: USDA could explore establishing an ombudsman 
        office to address customer and employee concerns about civil 
        rights, including determining whether legislation is a 
        prerequisite for an ombudsman to be effective at USDA. Many 
        other agencies have created ombudsman offices for addressing 
        employees' concerns. A USDA ombudsman who is independent, 
        impartial, fully capable of conducting meaningful 
        investigations and who can maintain confidentiality could 
        assist in resolving civil rights concerns at USDA.

    In October 2008, we suggested that Congress consider (1) making 
USDA's Assistant Secretary for Civil Rights subject to a statutory 
performance agreement and (2) establishing a USDA civil rights 
oversight board. USDA initially disagreed with these suggestions; in 
April 2009, however, ASCR officials said that, while the Department no 
longer disagrees with these suggestions, they hope that the actions 
they are taking or planning to improve the management of civil rights 
at USDA will preclude the need for these mechanisms. In addition, we 
recommended that USDA explore the potential for an ombudsman office to 
contribute to addressing the civil rights concerns of USDA customers 
and employees. In April 2009, ASCR officials indicated that the 
Assistant Secretary for Civil Rights has convened a team to study the 
ombudsman concept and to make recommendations by September 30, 2009, to 
the Secretary of Agriculture for establishing an ombudsman office.
Problems in Resolving Discrimination Complaints Persist
    The credibility of USDA's efforts to correct long-standing problems 
in resolving customer and employee discrimination complaints has been 
undermined by faulty reporting of complaint data, including disparities 
we found when comparing various ASCR sources of data. When ASCR was 
created in 2003, there was an existing backlog of complaints that had 
not been adjudicated. In response, the Assistant Secretary for Civil 
Rights at that time called for a concerted 12 month effort to reduce 
this backlog and to put lasting improvements in place to prevent future 
complaint backlogs. In July 2007, ASCR reported that it had reduced its 
backlog of 690 complaints and held the complaint inventory to 
manageable levels through Fiscal Year 2005.\4\ However, the data ASCR 
reported lack credibility because they were inconsistent with other 
complaint data it reported a month earlier to a Congressional 
subcommittee. The backlog later surged to 885 complaints, according to 
ASCR data. Furthermore, the Assistant Secretary's letter transmitting 
these data stated that while they were the best available, they were 
incomplete and unreliable. In addition, GAO and USDA's OIG have 
identified other problems with ASCR's data, including the need for 
better management controls over the entry and validation of these data.
---------------------------------------------------------------------------
    \4\ USDA, First 1,000 Days, 2003-2006 (Washington, D.C.: July 
2007).
---------------------------------------------------------------------------
    In addition, some steps that ASCR took to speed up its 
investigations and decisions on complaints in 2004 may have adversely 
affected the quality of its work. ASCR's plan called for USDA's 
investigators and adjudicators, who prepare agency decisions, to nearly 
double their normal pace of casework for about 12 months. ASCR's former 
Director, Office of Adjudication and Compliance, stated that this 
increased pace led to many ``summary'' decisions on employees' 
complaints that did not resolve questions of fact, with the result that 
many decisions were appealed to the Equal Employment Opportunity 
Commission. This official also said these summary decisions ``could 
call into question the integrity of the process because important 
issues were being overlooked.'' In addition, inadequate working 
relationships and communications within ASCR, as well as fear of 
retaliation for reporting management-related problems, complicated 
ASCR's efforts to produce quality work products. In August 2008, ASCR 
officials stated they would develop standard operating procedures for 
the Office of Adjudication and Compliance and had provided USDA staff 
training on communication and conflict management, among other things. 
While these are positive steps, they do not directly respond to whether 
USDA is adequately investigating complaints, developing thorough 
complaint decisions, and addressing the problems that gave rise to 
discrimination complaints within ASCR.
    The Food, Conservation, and Energy Act of 2008 (2008 Farm Bill), 
enacted in June 2008, states that it is the sense of Congress that all 
pending claims and class actions brought against USDA by socially 
disadvantaged farmers and ranchers should be resolved in an expeditious 
and just manner. In addition, the 2008 Farm Bill requires USDA to 
report annually on, among other things, the number of customer and 
employee discrimination complaints filed against each USDA agency, and 
the length of time the agency took to process each complaint.
    In October 2008, we recommended that the Secretary of Agriculture 
take the following actions related to resolving discrimination 
complaints:

  <bullet> Prepare and implement an improvement plan for resolving 
        discrimination complaints that sets timeframe goals and 
        provides management controls for resolving complaints from 
        beginning to end.

  <bullet> Develop and implement a plan to ensure the accuracy, 
        completeness and reliability of ASCR's databases on customer 
        and employee complaints, and that provides for independent 
        validation of ASCR's data quality.

  <bullet> Obtain an expert, independent, and objective legal 
        examination of the basis, quality, and adequacy of a sample of 
        USDA's prior investigations and decisions on civil rights 
        complaints, along with suggestions for improvement.

    USDA agreed with the first two recommendations, but initially 
disagreed with the third, asserting that its internal system of legal 
sufficiency addresses our concerns, works well, and is timely and 
effective. Given the substantial evidence of civil rights case delays 
and questions about the integrity of USDA's civil rights casework, we 
believe this recommendation remains valid and necessary to restore 
confidence in USDA's civil rights decisions. In April 2009, ASCR 
officials said that USDA now agrees with all three of the 
recommendations and that the Department is taking steps to implement 
them. These steps include hiring a consultant to assist ASCR with 
setting timeframe goals and establishing proper management controls; a 
contractor to help move data from ASCR's three complaint databases into 
one; and a firm to provide ASCR with independent legal advice on 
developing standards on what constitutes a program complaint and 
actions needed to adjudicate those complaints.

Reports on Minority Participation Are Unreliable and of Limited 
        Usefulness
    As required by the 2002 Farm Bill, ASCR has published three annual 
reports on the participation rate of socially disadvantaged farmers and 
ranchers in USDA programs. The reports are to provide statistical data 
on program participants by race and ethnicity, among other things. 
However, much of these data are unreliable because USDA lacks a uniform 
method of reporting and tabulating race and ethnicity data among its 
component agencies. According to USDA, to collect standardized 
demographic data directly from participants in many of its programs, it 
must first obtain OMB's approval. In the meantime, most of USDA's 
demographic data are gathered by visual observation of program 
applicants, a method that is inherently unreliable and subjective, 
especially for determining ethnicity. To address this problem, ASCR 
published a notice in the Federal Register in 2004 seeking public 
comment on its plan to collect standardized data on race, ethnicity, 
gender, national origin, and age for all its programs. However, while 
it received some comments, ASCR has not moved forward to finalize this 
rulemaking and obtain OMB's approval to collect these data.
    The 2008 Farm Bill contains several provisions related to reporting 
on minority farmers' participation in USDA programs. First, it requires 
USDA to annually compile program application and participation rate 
data for each program serving those farmers. These reports are to 
include the raw numbers and participation rates for the entire United 
States and for each state and county. Second, it requires USDA to 
ensure, to the maximum extent practicable, that the Census of 
Agriculture and studies by USDA's Economic Research Service accurately 
document the number, location, and economic contributions of minority 
farmers in agricultural production.
    In October 2008, to address underlying data reliability issues, as 
discussed, and potential steps USDA could take to facilitate data 
analysis by users, we recommended that the Secretary of Agriculture 
work expeditiously to obtain OMB's approval to collect the demographic 
data necessary for reliable reporting on race and ethnicity by USDA 
program. USDA agreed with the recommendation. In April 2009, ASCR 
officials indicated that a draft Federal Register notice requesting 
OMB's approval to collect these data for Farm Service Agency, Natural 
Resources Conservation Service, and Rural Development programs is being 
reviewed within USDA. These officials said they hoped this notice, 
which they considered an initial step toward implementing our 
recommendation, would be published and implemented in time for USDA's 
field offices to begin collecting these data by October 1, 2009. 
According to these officials, USDA also plans to seek, at a later time, 
authority to collect such data on participants in all USDA programs.

Strategic Planning Is Limited and Lacks Needed Components
    In light of USDA's history of civil rights problems, better 
strategic planning is vital. Results-oriented strategic planning 
provides a road map that clearly describes what an organization is 
attempting to achieve and, over time, it can serve as a focal point for 
communication with Congress and the public about what has been 
accomplished. Results-oriented organizations follow three key steps in 
their strategic planning: (1) they define a clear mission and desired 
outcomes, (2) they measure performance to gauge progress, and (3) they 
use performance information for identifying performance gaps and making 
program improvements.
    ASCR has started to develop a results-oriented approach as 
illustrated in its first strategic plan, Assistant Secretary for Civil 
Rights: Strategic Plan, Fiscal Years 2005-2010, and its ASCR Priorities 
for Fiscal Years 2007 and 2008. However, ASCR's plans do not include 
fundamental elements required for effective strategic planning. In 
particular, we found that the interests of ASCR's stakeholders--
including representatives of community-based organizations and minority 
interest groups--are not explicitly reflected in its strategic plan. 
For example, we found that ASCR's stakeholders are interested in 
improvements in (1) USDA's methods of delivering farm programs to 
facilitate access by underserved producers; (2) the county committee 
system, so that stakeholders are better represented in local decisions; 
and (3) the diversity of USDA employees who work with minority 
producers. A more complete list of these interests is included in the 
appendix.
    In addition, ASCR's strategic plan does not link to the plans of 
other USDA agencies or the Department and does not discuss the 
potential for linkages to be developed. ASCR could also better measure 
performance to gauge progress, and it has not yet started to use 
performance information for identifying USDA performance gaps. For 
example, ASCR measures USDA efforts to ensure USDA customers have equal 
and timely access to programs by reporting on the numbers of 
participants at USDA workshops rather than measuring the results of its 
outreach efforts on access to benefits and services. Moreover, the 
strategic plan does not make linkages between levels of funding and 
ASCR's anticipated results; without such a discussion, it is not 
possible to determine whether ASCR has the resources needed to achieve 
its strategic goal of, for example, strengthening partnerships with 
historically black land-grant universities through scholarships 
provided by USDA.
    To help ensure access to and equitable participation in USDA's 
programs and services, the 2008 Farm Bill provided for establishing the 
Office of Advocacy and Outreach and charged it with, among other 
things, establishing and monitoring USDA's goals and objectives to 
increase participation in USDA programs by small, beginning, and 
socially disadvantaged farmers and ranchers. As of April 2009, ASCR 
officials indicated that the Secretary of Agriculture plans to 
establish this office, but has not yet done so.
    In October 2008, we recommended that USDA develop a results-
oriented Department-level strategic plan for civil rights that unifies 
USDA's departmental approach with that of ASCR and the newly created 
Office of Advocacy and Outreach and that is transparent about USDA's 
efforts to address stakeholder concerns. USDA agreed with this 
recommendation. In April 2009, ASCR officials said they plan to 
implement this recommendation during the next Department-wide strategic 
planning process, which occurs every 5 years. Noting that the current 
plan runs through 2010, these officials speculated that work on the new 
plan will start in the next few months.

Lessons Learned That Could Benefit USDA's Civil Rights Performance
    Our past work in addressing the problems of high-risk, 
underperforming Federal agencies, as well as our reporting on results-
oriented management, suggests three options that could benefit USDA's 
civil rights performance. These options were selected based on our 
judgment that they (1) can help address recognized and long-standing 
problems in USDA's performance, (2) have been used previously by 
Congress to improve aspects of agency performance, (3) have contributed 
to improved agency performance, and (4) will result in greater 
transparency over USDA's civil rights performance. These options 
include (1) making USDA's Assistant Secretary for Civil Rights subject 
to a statutory performance agreement, (2) establishing an agriculture 
civil rights oversight board, and (3) creating an ombudsman for 
agriculture civil rights matters.

A Statutory Performance Agreement Could Help Define Accountability for 
        Results
    Our prior assessment of performance agreements used at several 
agencies has shown that these agreements have potential benefits that 
could help improve the performance of ASCR.\5\ Potential benefits that 
performance agreements could provide USDA include (1) helping to define 
accountability for specific goals and align daily operations with 
results-oriented programmatic goals, (2) fostering collaboration across 
organizational boundaries, (3) enhancing use of performance information 
to make program improvements, (4) providing a results-oriented basis 
for individual accountability, and (5) helping to maintain continuity 
of program goals during leadership transitions.
---------------------------------------------------------------------------
    \5\ GAO, Managing for Results: Emerging Benefits from Selected 
Agencies' Use of Performance Agreements, GAO-01-115 (http://
www.gao.gov/new.items/d01115.pdf) (Washington, D.C.: Oct. 30, 2000).
---------------------------------------------------------------------------
    Congress has required performance agreements in other Federal 
offices and the results have been positive. For example, in 1998, 
Congress established the Department of Education's Office of Federal 
Student Aid as the government's first performance-based 
organization.\6\ This office had experienced long-standing financial 
and management weaknesses and we had listed the Student Aid program as 
high-risk since 1990. Congress required the office's Chief Operating 
Officer to have a performance agreement with the Secretary of Education 
that was transmitted to Congressional Committees and made publicly 
available. In addition, the office was required to report to Congress 
annually on its performance, including the extent to which it met its 
performance goals. In 2005, because of the sustained improvements made 
by the office in its financial management and internal controls, we 
removed this program from our high-risk list. More recently, Congress 
has required statutory performance agreements for other Federal 
executives, including for the Commissioners of the U.S. Patent and 
Trademark Office and the Under Secretary for Management of the 
Department of Homeland Security.\7\
---------------------------------------------------------------------------
    \6\ Higher Education Amendments of 1998, Pub. L. No. 105-244  
101(a), 112 Stat. 1581 (amending 20 U.S.C.  1018).
    \7\ Pub. L. No. 106-113,  1000(a)(9) ( 4713), 113 Stat. 1501, 
1536, 1501A-21, 1501A-575 (1999) (amending 35 U.S.C.  3); Implementing 
Recommendations of the 9/11 Commission Act of 2007, Pub. L. No. 110-53 
 2405(b), 121 Stat. 266, 548 (amending 6 U.S.C.  341(c)).
---------------------------------------------------------------------------
    A statutory performance agreement could benefit ASCR. The 
responsibilities assigned to USDA's Assistant Secretary for Civil 
Rights were stated in general terms in both the 2002 Farm Bill and the 
Secretary's memorandum establishing this position within USDA. The 
Secretary's memorandum stated that the Assistant Secretary reports 
directly to the Secretary and is responsible for (1) ensuring USDA's 
compliance with all civil rights laws and related laws, (2) 
coordinating administration of civil rights laws within USDA, and (3) 
ensuring that civil rights components are incorporated in USDA 
strategic planning initiatives. This set of responsibilities is broad 
in scope, and it does not identify specific performance expectations 
for the Assistant Secretary. A statutory performance agreement could 
assist in achieving specific expectations by providing additional 
incentives and mandatory public reporting.
    In October 2008, we suggested that Congress consider the option of 
making USDA's Assistant Secretary for Civil Rights subject to a 
statutory performance agreement. USDA initially disagreed with this 
suggestion, in part stating that the Assistant Secretary's 
responsibilities are spelled out in the 2002 and 2008 Farm Bills. In 
response, we noted, in part, that a statutory performance agreement 
would go beyond the existing legislation by requiring measurable 
organizational and individual goals in key performance areas. In April 
2009, ASCR officials indicated that the Department no longer disagrees 
with this suggestion. However, these officials expressed the hope that 
the actions they are taking or planning to improve the management of 
civil rights at USDA, such as obtaining an independent external 
analysis of program delivery, will preclude the need for this 
mechanism.

An Oversight Board Could Improve ASCR Management
    Congress could also authorize a USDA civil rights oversight board 
to independently monitor, evaluate, approve, and report on USDA's 
administration of civil rights activities, as it has for other Federal 
activities. Oversight boards have often been used by the Federal 
Government--such as for oversight of public accounting, intelligence 
matters, civil liberties, and drug safety--to provide assurance that 
important activities are well done, to identify weaknesses that may 
need to be addressed, and to provide for transparency.
    For example, Congress established the Internal Revenue Service 
(IRS) Oversight Board in 1998 to oversee IRS's administration of 
internal revenue laws and ensure that its organization and operation 
allow it to carry out its mission. At that time, IRS was considered to 
be an agency that was not effectively serving the public or meeting 
taxpayer needs. The board operates much like a corporate board of 
directors, tailored to fit the public sector. The board provides 
independent oversight of IRS administration, management, conduct, and 
the direction and supervision of the application of the internal 
revenue code. We have previously noted the work of the Internal Revenue 
Service Oversight Board--including, for example, the board's 
independent analysis of IRS business systems modernization.\8\ 
Currently, there is no comparable independent oversight of USDA civil 
rights activities.
---------------------------------------------------------------------------
    \8\ GAO, Business Systems Modernization: Internal Revenue Service 
Needs to Further Strengthen Program Management, GAO-04-438T (http://
www.gao.gov/new.items/d04438t.pdf) (Washington, D.C.: Feb. 12, 2004).
---------------------------------------------------------------------------
    In October 2008, we suggested that Congress consider the option of 
establishing a USDA civil rights oversight board to independently 
monitor, evaluate, approve, and report on USDA's administration of 
civil rights activities. Such a board could provide additional 
assurance that ASCR management functions effectively and efficiently. 
USDA initially disagreed with this suggestion, stating that it would be 
unnecessarily bureaucratic and delay progress. In response, we noted 
that a well-operated oversight board could be the source of timely and 
wise counsel to help raise USDA's civil rights performance. In April 
2009, ASCR officials said that the Department no longer disagrees with 
this suggestion. However, these officials expressed the hope that the 
actions they are taking or planning to address our recommendations to 
improve the management of civil rights at USDA will preclude the need 
for this mechanism.

An Ombudsman Could Address Concerns of USDA Customers and Employees
    An ombudsman for USDA civil rights matters could be created to 
address the concerns of USDA customers and employees. Many other 
agencies have created ombudsman offices for addressing employees' 
concerns, as authorized by the Administrative Dispute Resolution Act. 
However, an ombudsman is not merely an alternative means of resolving 
employees' disputes; rather, the ombudsman is a neutral party who uses 
a variety of procedures, including alternative dispute resolution 
techniques, to deal with complaints, concerns, and questions.
    Ombudsmen who handle concerns and inquiries from the public--
external ombudsmen--help agencies be more responsive to the public 
through impartial and independent investigation of citizens' 
complaints, including those of people who believe their concerns have 
not been dealt with fairly and fully through normal channels. For 
example, we reported that ombudsmen at the Environmental Protection 
Agency serve as points of contact for members of the public who have 
concerns about certain hazardous waste cleanup activities. We also 
identified the Transportation Security Administration ombudsman as one 
who serves external customers and is responsible for recommending and 
influencing systemic change where necessary to improve administration 
operations and customer service.\9\
---------------------------------------------------------------------------
    \9\ GAO, Transportation Security Administration: Actions and Plans 
to Develop a Results-Oriented Culture, GAO-03-190 (http://www.gao.gov/
new.items/d03190.pdf) (Washington, D.C.: Jan. 17, 2003).
---------------------------------------------------------------------------
    Within the Federal workplace, ombudsmen provide an informal 
alternative to existing and more formal processes to deal with 
employees' workplace conflicts and other organizational climate issues. 
USDA faces concerns of fairness and equity from both customers and 
employees--a range of issues that an ombudsman could potentially assist 
in addressing. A USDA ombudsman who is independent, impartial, fully 
capable of conducting meaningful investigations and who can maintain 
confidentiality could assist in resolving these civil rights concerns. 
As of April 2007, 12 Federal departments and nine independent agencies 
reported having 43 ombudsmen.
    In October 2008, we recommended that USDA explore the potential for 
an ombudsman office to contribute to addressing the civil rights 
concerns of USDA customers and employees, including seeking legislative 
authority, as appropriate, to establish such an office and to ensure 
its effectiveness, and advise USDA's Congressional oversight Committees 
of the results. USDA agreed with this recommendation. In April 2009, 
ASCR officials indicated that the Assistant Secretary for Civil Rights 
has convened a team to study the ombudsman concept and to make 
recommendations by September 30, 2009, to the Secretary of Agriculture 
for establishing an ombudsman office.

Concluding Observations
    USDA has been addressing allegations of discrimination for decades 
and receiving recommendations for improving its civil rights functions 
without achieving fundamental improvements. One lawsuit has cost 
taxpayers about a billion dollars in payouts to date, and several other 
groups are seeking redress for similar alleged discrimination. While 
ASCR's established policy is to fairly and efficiently respond to 
complaints of discrimination, its efforts to establish the management 
system necessary to implement the policy have fallen short, and 
significant deficiencies remain.
    Unless USDA addresses several fundamental concerns about resolving 
discrimination complaints--including the lack of credible data on the 
numbers, status, and management of complaints; the lack of specified 
timeframes and management controls for resolving complaints; questions 
about the quality of complaint investigations; and concerns about the 
integrity of final decision preparation--the credibility of USDA 
efforts to resolve discrimination complaints will be in doubt. In 
addition, unless USDA obtains accurate data on minority participation 
in USDA programs, its reports on improving minority participation in 
USDA programs will not be reliable or useful. Furthermore, without 
better strategic planning and meaningful performance measures, it 
appears unlikely that USDA management will be fully effective in 
achieving its civil rights mission.
    Given the new Administration's commitment to giving priority 
attention to USDA's civil rights problems, various options may provide 
a road map to correcting long-standing management deficiencies that 
have given rise to these problems. Specifically, raising the public 
profile for transparency and accountability through means such as a 
statutory performance agreement between the Secretary of Agriculture 
and the Assistant Secretary for Civil Rights, a civil rights oversight 
board, and an ombudsman for addressing customers' and employees' civil 
rights concerns would appear to be helpful steps because they have 
proven to be effective in raising the performance of other Federal 
agencies. These options could lay a foundation for clarity about the 
expectations USDA must meet to restore confidence in its civil rights 
performance.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions that you or other Members of the 
Subcommittee may have.

Contacts and Staff Acknowledgments
    Contact points for our Offices of Congressional Relations and 
Public Affairs may be found on the last page of this statement. For 
further information about this testimony, please contact Lisa Shames, 
Director, Natural Resources and Environment, [Redacted] or [Redacted]. 
Key contributors to this statement were James R. Jones, Jr., Assistant 
Director; Kevin S. Bray; Nancy Crothers; Nico Sloss; and Alex M. 
Winograd.
   Appendix: Interests of Selected USDA Stakeholders in Civil Rights-
         Related Matters as Identified by GAO in 2007 and 2008



------------------------------------------------------------------------



------------------------------------------------------------------------
      Category of interest                 Stakeholder interests
------------------------------------------------------------------------
Outreach programs                 USDA outreach programs for underserved
                                   producers could be much better.



------------------------------------------------------------------------
Program delivery                  Methods of USDA program delivery need
                                   to better facilitate the
                                   participation of underserved
                                   producers and address their needs.








------------------------------------------------------------------------
County system                     The county committee system does not
                                   represent minority producers well.


------------------------------------------------------------------------
Investment                        There is a lack of USDA investment in
                                   research and extension services that
                                   would determine the extent of
                                   minority needs.
------------------------------------------------------------------------
Census of Agriculture             The Census of Agriculture needs to
                                   better count minority producers.
------------------------------------------------------------------------
Foreclosure                       USDA may continue to be foreclosing on
                                   farms belonging to producers who are
                                   awaiting decisions on discrimination
                                   complaints.
------------------------------------------------------------------------
Authority                         ASCR needs authority to exercise
                                   leadership for making changes at
                                   USDA.
------------------------------------------------------------------------
Resources                         USDA and ASCR need additional
                                   resources to carry out civil rights
                                   functions.
------------------------------------------------------------------------
Diversity                         Greater diversity among USDA employees
                                   would facilitate USDA's work with
                                   minority producers.
------------------------------------------------------------------------
Access                            Producers must still access services
                                   through some USDA employees who
                                   discriminated against them.
------------------------------------------------------------------------
Management structure              The Office of Adjudication and
                                   Compliance needs better management
                                   structure and function.



------------------------------------------------------------------------
General Counsel Review            USDA's Office of General Counsel
                                   continues to be involved in complaint
                                   cases.
------------------------------------------------------------------------
Source: GAO analysis of documents and interviews.

Related GAO Products
    U.S. Department of Agriculture: Recommendations and Options to 
Address Management Deficiencies in the Office of the Assistant 
Secretary for Civil Rights. GAO-09-62 (http://www.gao.gov/new.items/
d0962.pdf). Washington, D.C.: October 22, 2008.
    U.S. Department of Agriculture: Management of Civil Rights Efforts 
Continues to Be Deficient Despite Years of Attention. GAO-08-755T 
(http://www.gao.gov/new.items/d08755t.pdf). Washington, D.C.: May 14, 
2008.
    Pigford Settlement: The Role of the Court-Appointed Monitor. GAO-
06-469R (http://www.gao.gov/new.items/d06469r.pdf). Washington, D.C.: 
March 17, 2006.
    Department of Agriculture: Hispanic and Other Minority Farmers 
Would Benefit from Improvements in the Operations of the Civil Rights 
Program. GAO-02-1124T (http://www.gao.gov/new.items/d021124t.pdf). 
Washington, D.C.: September 25, 2002.
    Department of Agriculture: Improvements in the Operations of the 
Civil Rights Program Would Benefit Hispanic and Other Minority Farmers. 
GAO-02-942
(http://www.gao.gov/new.items/d02942.pdf). Washington, D.C.: September 
20, 2002.
    U.S. Department of Agriculture: Resolution of Discrimination 
Complaints Involving Farm Credit and Payment Programs. GAO-01-521R 
(http://www.gao.gov/new.items/d01521r.pdf). Washington, D.C.: April 12, 
2001.
    U.S. Department of Agriculture: Problems in Processing 
Discrimination Complaints. T-RCED-00-286 (http://www.gao.gov/archive/
2000/rc00286t.pdf). Washington, D.C.: September 12, 2000.
                               Attachment
U.S. Department of Agriculture
Management of Civil Rights Efforts Continues to Be Deficient Despite 
        Years of Attention
May 14, 2008
Highlights
    Highlights of GAO-08-755T (http://www.gao.gov/new.items/
d08755t.pdf), a testimony before the Subcommittee on Government 
Management, Organization, and Procurement, Committee on Oversight and 
Government Reform, House of Representatives.

Why GAO Did This Study
    For decades, there have been allegations of discrimination in the 
U.S. Department of Agriculture (USDA) programs and workforce. Reports 
and Congressional testimony by the U.S. Commission on Civil Rights, the 
U.S. Equal Employment Opportunity Commission, a former Secretary of 
Agriculture, USDA's Office of Inspector General, GAO, and others have 
described weaknesses in USDA's programs--in particular, in resolving 
complaints of discrimination and in providing minorities access to 
programs. The Farm Security and Rural Investment Act of 2002 authorized 
the creation of the position of Assistant Secretary for Civil Rights 
(ASCR), giving USDA an executive that could provide leadership for 
resolving these long-standing problems.
    This testimony focuses on USDA's efforts to (1) resolve 
discrimination complaints, (2) report on minority participation in USDA 
programs, and (3) strategically plan its efforts. This testimony is 
based on new and prior work, including analysis of ASCR's strategic 
plan; discrimination complaint management; and about 120 interviews 
with officials of USDA and other Federal agencies, as well as 20 USDA 
stakeholder groups.
    USDA officials reviewed the facts upon which this statement is 
based, and we incorporated their additions and clarifications as 
appropriate. GAO plans a future report with recommendations.
    To view the full product, including the scopeand methodology, click 
on GAO-08-755T (http://www.gao.gov/new.items/d08755t.pdf).For more 
information, contact Lisa Shames at [Redacted] or [Redacted].

What GAO Found
    ASCR's difficulties in resolving discrimination complaints 
persist--ASCR has not achieved its goal of preventing future backlogs 
of complaints. At a basic level, the credibility of USDA's efforts has 
been and continues to be undermined by ASCR's faulty reporting of data 
on discrimination complaints and disparities in ASCR's data. Even such 
basic information as the number of complaints is subject to wide 
variation in ASCR's reports to the public and the Congress. Moreover, 
ASCR's public claim in July 2007 that it had successfully reduced a 
backlog of about 690 discrimination complaints in Fiscal Year 2004 and 
held its caseload to manageable levels, drew a questionable portrait of 
progress. By July 2007, ASCR officials were well aware they had not 
succeeded in preventing future backlogs--they had another backlog on 
hand, and this time the backlog had surged to an even higher level of 
885 complaints. In fact, ASCR officials were in the midst of planning 
to hire additional attorneys to address that backlog of complaints 
including some ASCR was holding dating from the early 2000s that it had 
not resolved. In addition, some steps ASCR had taken may have actually 
been counter-productive and affected the quality of its work. For 
example, an ASCR official stated that some employees' complaints had 
been addressed without resolving basic questions of fact, raising 
concerns about the integrity of the practice. Importantly, ASCR does 
not have a plan to correct these many problems.
    USDA has published three annual reports--for Fiscal Years 2003, 
2004, and 2005--on the participation of minority farmers and ranchers 
in USDA programs, as required by law. USDA's reports are intended to 
reveal the gains or losses that these farmers have experienced in their 
participation in USDA programs. However, USDA considers the data it has 
reported to be unreliable because they are based on USDA employees' 
visual observations about participant's race and ethnicity, which may 
or may not be correct, especially for ethnicity. USDA needs the 
approval of the Office of Management and Budget (OMB) to collect more 
reliable data. ASCR started to seek OMB's approval in 2004, but as of 
May 2008 had not followed through to obtain approval. ASCR staff will 
meet again on this matter in May 2008.
    GAO found that ASCR's strategic planning is limited and does not 
address key steps needed to achieve the Office's mission of ensuring 
USDA provides fair and equitable services to all customers and upholds 
the civil rights of its employees. For example, a key step in strategic 
planning is to discuss the perspectives of stakeholders. ASCR's 
strategic planning does not address the diversity of USDA's field staff 
even though ASCR's stakeholders told GAO that such diversity would 
facilitate interaction with minority and underserved farmers. Also, 
ASCR could better measure performance to gauge its progress in 
achieving its mission. For example, it counts the number of 
participants in training workshops as part of its outreach efforts 
rather than access to farm program benefits and services. Finally, 
ASCR's strategic planning does not link levels of funding with 
anticipated results or discuss the potential for using performance 
information for identifying USDA's performance gaps.

    The Chairman. I thank both of you for your statements.
    My first question to Dr. Leonard, in your opinion, to what 
degree are the problems at ASCR a matter of culture among 
career personnel, and can political appointees really fix the 
problems?
    Dr. Leonard. Mr. Chairman, I believe it is a little too 
early to say. In the 23 days that I have been there, I have met 
with every director in the office. I had long discussions with 
them, and I am still trying to go through my initial review.
    I do believe the culture can change. I believe, with 
Secretary Vilsack's statement and actions, that the culture 
will change.
    When I came here yesterday, I came on the Hill yesterday, 
in our office, every Subcabinet position was meeting and 
getting civil rights training, including deputy chief of staff, 
chief of staffs and Subcabinet positions. Receiving civil 
rights training, it will trickle down to county-level 
personnel. I believe with his dedication to civil rights, the 
culture will change.
    The Chairman. By that statement, you mean attitudes and 
behaviors will change, is that correct?
    Dr. Leonard. That is correct.
    The Chairman. That seems to have been the problem with 
14,000 complaints and only four being heard. When you look at 
cultural change, that means attitudes and behavior of handling 
the discrimination complaints to ensure there is equity and 
fairness by individuals who have filed the complaint, because 
there is not only past discrimination but current 
discrimination as well.
    My next question, and I know that it was said a little bit 
by Ms. Shames, the GAO report makes it clear there must be hard 
timeframes--and I think that is very important--timeframes for 
resolving discrimination complaints. What will you do to 
enforce, enforce these timeframes, both in resolving complaints 
and carrying out the new civil rights era for USDA you propose, 
in a timely manner. That becomes very important, as time is 
money, and time also affects the lives of many individuals in 
terms of their attitudes and their behaviors.
    Dr. Leonard. Mr. Chairman, before I even came on board, 
Secretary Vilsack went and got Mr. Lloyd Wright as Assistant to 
the Secretary on Program Complaints. Mr. Wright is a former 
Director of the Office of Civil Rights during the Clinton 
Administration in 1998. Mr. Wright and I will look at the 
policies and procedures in order to do a better job of 
maintaining the procedures and the current timeframes, and 
being able to meet the 180 day guidelines regarding EEO 
complaints and program complaints in the field.
    So the good thing about Secretary Vilsack's commitment, he 
began before I came on board, and I have been working with Mr. 
Wright in order to put these procedures in place.
    The Chairman. Thank you. I know that all of us are very 
much concerned when we look at the growth of our population and 
our society, and so we are always looking at, do you look like 
some of us, or do you look a little bit different? My question 
is, what is the ethnic composition of the USDA employees in the 
23 days that you have been there?
    Dr. Leonard. The African American population is 10.8 
percent. The Hispanic population is six percent. The Asian 
American population is 2.8 percent. And that is of the around 
108,000 employees at USDA across the country.
    The Chairman. So it seems we have some work to do as it is 
not reflective of our population, especially as we look at the 
black population, which is approximately 12 percent nationwide, 
and we look at the Hispanic population that is about 16 to 17 
percent of the total population. And then you look at the Asian 
population that is somewhere around four to six percent. So we 
still have some work.
    Hopefully the composition will change in order to be 
reflective so when you have complaints, we know that they are 
going to be done within the culture, with the changes that are 
needed as well. Hopefully, you will work on improving that in 
the future. I know a lot of us like going into an office and 
seeing people who look like us because people are sometimes 
sensitive. Not that others are not sensitive, but it is 
important when it comes to civil rights and other actions. And 
I know women feel the same way. When they see it is 
predominantly males, they ask, are you sensitive to some of our 
issues? And we have a lot more women farmers as well now. So 
this is another area that we have to address.
    In the 2008 Farm Bill, the farm bill created the Office of 
Advocacy and Outreach to better serve minorities and small 
farmers. When will it be up and running, and what will be the 
relationship between ASCR and OAO?
    Dr. Leonard. At present, that is still being discussed. I 
went back, and I saw one of the letters that you signed in 
September 2008, yourself, Representative Kilpatrick and 
Representative Honda, the Tri-Caucus letter, asking that the 
Office of Advocacy and Outreach be put into the Secretary's 
Office because the Tri-Caucus felt it was that important.
    I want to let you know, Mr. Chairman, it is being 
discussed. We are in receipt in your letter, and it is being 
discussed at the highest levels.
    The Chairman. I know that my time has run out.
    I will ask the Ranking Member, Mr. Fortenberry, for 
questions.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Dr. Leonard, you mentioned that the Secretary suspended 
foreclosures for the next 90 days. That is on all farms, not 
just minority-owned farms. What is the percentage of minority-
owned farms that are in foreclosure versus the total 
percentage? Is it disproportionate? What would be expected 
across all farms, is there increased pressure there?
    Dr. Leonard. I don't have the exact number. I will get back 
to you. I don't want to give any casual numbers, as has been 
done in the past. I want to make sure that I have the proper 
number for you. I will follow up with your staff and let you 
know.
    Mr. Fortenberry. All right. Let's go back to the issue of 
timeframes. Again I heard the time reference of 180 days to 
resolving a discrimination complaint. Given the backlog, what 
do you anticipate as your total timeframe in which we need to 
clear up past complaints so that these issues are resolved in 
the future, and that your office is on, I guess a normal basis 
instead of high alert, if you will, engaged in the normal 
activities which you are charged to do versus trying to clean 
up whatever past discrimination may have existed?
    Dr. Leonard. Representative Kagen mentioned in the past 
there have been reorganizations, and it has been time-
consuming. We will have to undergo a reorganization, and one is 
underway right now. Past complaints, all EEO and program 
complaints, went through the same process. Now we are trying to 
divide the EEO complaints and have a more streamlined process, 
and the program complaints have a different process in which we 
can adequately address both matters. Also, we are currently 
trying to work within a year to get these things done properly.
    The backlog of complaints that are not regarding cases are 
smaller, and we will need additional support.
    Mr. Fortenberry. Does that mean programmatic, making that 
distinction?
    Dr. Leonard. Yes. The number that the Chairman gave was 
from 2000 to 2008, the 14,000 does not exist now. However, 
there is a backlog, and we are going to need additional staff 
and almost need to have a triage moment. You are right; it is 
going to be all hands on deck for about a year in which to 
begin to adequately investigate and adjudicate these cases. But 
we are in the process of creating the reorganization and the 
timeframe.
    There are vastly different manners in which you work on a 
farmers' complaint and an EEO internal complaint. And those two 
had gone through the same way.
    Mr. Fortenberry. You are developing special tracks now as 
part of your reorganization?
    Dr. Leonard. Absolutely.
    Mr. Fortenberry. That is helpful to know. Hopefully, that 
will diminish the intensity of the issue for you and clear up 
what continues to be this lingering cloud over the Department 
and all of the many good people who work very hard to ensure 
that the Department of Agriculture has an extraordinary 
reputation in serving our nation's farmers and helping to feed 
the world, which is, of course, our fundamental mission, and 
keeping us safe in an abundant food supply. So the sooner we 
can clean this up and get beyond it, I think, is helpful in 
creating a new spirit, a new environment there. That is helpful 
information. That is all I have.
    Thank you, Mr. Chairman.
    The Chairman. Next I call on the gentleman from Georgia, 
Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Let me go back to the foreclosures for a moment, Dr. 
Leonard. How many black farms are in foreclosure now? Do you 
have any idea?
    Dr. Leonard. We don't have an exact number right now.
    Mr. Scott. Let's review this for a second. The moratorium 
was requested last year during the Bush Administration. The 
Bush Administration refused. So at what point did the Obama 
Administration begin to react to this, from your knowledge? He 
has been in for 100 days. Was it right when he came into 
office, or was it after a period of time?
    Dr. Leonard. There have been ongoing discussions throughout 
his 100 days. With all of these processes, you have to work 
them out with OMB and other agencies. Secretary Vilsack felt it 
was important to move on this, as the President had requested 
as well. So both of them had been working to make this happen 
as soon as possible. But other agencies, you have to get 
clearance for everything. There is a Hill process where you 
have clearance, but the agency process is much more of a 
labyrinth than I anticipated.
    Mr. Scott. So what has happened, and you mentioned in your 
statement that the Secretary now will temporarily suspend all 
current foreclosures and allow for approximately 90 days. So, 
my question is, given that, can we safely say then that no 
black farmers are in foreclosure as of this time; that they 
have been stayed temporarily and you are looking at them during 
this 90 day period? Or have there been any who have fallen 
through the cracks who have been foreclosed on?
    Dr. Leonard. Not that I know of.
    Mr. Scott. Now, in this 90 days, what is taking place? You 
mentioned in your statement that this time affords the 
Department the opportunity to review the loans for any problems 
associated with possible discriminatory conduct. I guess what I 
am asking, is the criterion taking these 90 days just to find 
out if there is any discrimination that happened? And if the 
conclusion is no discrimination happened, these are set-aside 
here, and they are divided, and then what happens to those that 
you say, well, there was no discrimination here, they get no 
relief? Or have you come to the conclusion that basically all 
fall within some measure of having some discrimination, so that 
you would extend that help?
    I am just trying to get our hands around the foreclosures, 
the characteristics of our foreclosure approach and how 
extensive it is?
    Dr. Leonard. Our office has received a large number of 
calls from farmers in foreclosure, and Secretary Vilsack began 
to act on that.
    When I said there aren't any to my knowledge, since last 
Wednesday when the Secretary issued his memorandum, I believe 
we have only received two calls since then; whereas, before, we 
were probably receiving calls in the neighborhood of ten a day.
    The Secretary could, in this interim 90 days, what we are 
trying to do is ascertain what types of foreclosures farmers 
are in, in an effort to better be able to serve them.
    I don't think that the assumption is that all of the 
farmers in foreclosure, if they are African American, have been 
discriminated against. But we want to begin to investigate if 
they have been discriminated against. So I don't think that the 
assumption is an automatic assumption of discrimination, but we 
do need to take the time to give the proper due process to 
these farmers.
    The Chairman. Mr. Scott, you probably have additional 
questions, but we will submit those, and they will have an 
opportunity to answer those.
    Mr. Childers for questions.
    Mr. Childers. I thank both of you for being here this 
morning.
    Very briefly, Dr. Leonard, Secretary Vilsack announced that 
USDA would be bringing in a consultant to take a look at 
programs and procedures at the agency to make sure that they 
are conducted properly from this day forward. Who is the 
Secretary bringing in as a consultant? Do you know that?
    Dr. Leonard. The RFP has been constructed and should go 
out. There is no one individual. It will be a bidding process 
for this individual firm. But the RFP should be out, if not 
this week, then next week.
    Mr. Childers. I would like to say in advance, thank you for 
making sure that the very people who feed America and the 
world, quite frankly, are not discriminated against. We are 
long past that day, and we need to be moving on. Thank you in 
advance.
    The Chairman. We will have a second round, then adjourn, 
because we are voting right now.
    Ms. Shames, could you please describe some of the 
difficulties you and your team have had in questioning USDA 
employees for the October 2008 report, if you've had any 
difficulty?
    Ms. Shames. We did have some difficulties in accessing the 
documents that we wanted to undertake the review that you and 
others requested. We provided that list and, in the end, got 
sufficient documents to be able to make the recommendations 
that we did make. So, in the end, we feel that the audit was 
thorough and complete and documented according to our 
protocols.
    The Chairman. Thank you.
    What is the expression of culture at ASCR as you reviewed 
it, and could you offer your opinion as to whether political 
appointees can significantly alter the attitude and character 
of the staff at ASCR?
    Ms. Shames. Certainly the tone starts at the top. It is 
clear that this is at a time with a new Administration, new 
Secretary and new Assistant Secretary, and so I think that 
bodes well, looking forward.
    I do want to say that our work has shown that, for 
underperforming organizations, that it takes time to turn them 
around. What we have found is that the fundamental 
transformation that we are looking for in this office, based on 
other experiences, could take as long as 5 years, possibly 7 
years. So it is going to be a long process that is going to 
require a sustained effort.
    The Chairman. What was the interaction with OIG during your 
investigations?
    Ms. Shames. We always coordinate with the USDA Inspector 
General's Office. We want to ensure that we are using our 
scarce resources carefully and that we are not duplicating any 
work. I am pleased to say that the IG also cooperated in this 
effort. As we heard different complaints and different 
allegations, we were able to rely on their expertise and 
incorporate that into our report as well.
    The Chairman. Thank you.
    Mr. Fortenberry for any questions.
    Mr. Fortenberry. Very briefly, since we need to go vote, do 
you find that discrimination complaints about foreclosures 
against minority farmers are concentrated in a particular area? 
And if so, are there plans to increase oversight in particular 
locales?
    Dr. Leonard. With regard to African American farmers, 97 
percent of the complaints are in 14 states. Since 1983, USDA 
has not had any investigators go in and investigate claims of 
discrimination. So one of the matters that we are considering 
is hiring investigators to be able to go in to these different 
states.
    The Chairman. Thank you very much.
    Before we adjourn, I want to thank both of you for coming 
before us.
    The first step in the recovery process is admission of the 
mistakes of the past, and I am pleased that Secretary Vilsack 
has already taken steps in the right direction with the new era 
of civil rights initiative, but I want to repeat this point: 
The Subcommittee will conduct active oversight of ASCR to make 
sure that the goals in the new initiative are met, which is 
important. Again, I want to thank the witnesses and Members for 
being here today.
    Before we adjourn, I would like to state that, under the 
rules of the Committee, the record of today's hearing will 
remain open for 10 calendar days to receive additional 
materials and supplemental written response by witnesses, and 
questions by Members may be submitted.
    This hearing of the Subcommittee of Department Operations, 
Oversight, Nutrition, and Forestry is now adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]

                                  <all>

</pre></body></html>
